December 8, 2020
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re: Rodney Carlisle, Jr. v. Kentucky,
No. 20-564
Dear Mr. Harris:
The Commonwealth of Kentucky respectfully requests an extension of 30 days to
file its brief in opposition to the petition for writ of certiorari. Since receiving the
request from your office for a response, the undersigned counsel of record wrote and
filed a response to a state court petition for intermediate relief and worked on two
answers to federal habeas petitions, in addition to drafting the brief in this matter.
Counsel also has two state-court briefing deadlines—already extended—in early
and mid-January. Counsel needs the additional time to complete the brief in
opposition.
Kentucky’s brief in opposition is due December 21, 2020; the 30-day extension
would make it due Wednesday, January 20, 2021.
Counsel of record for the Petitioner, Hon. David A. O’Neil, has stated he has no
opposition to this request.
Respectfully Submitted,
/s/ James Havey
James Havey
Assistant Attorney General
cc: Hon. David A. O’Neil

